INMATE DECLARATION
1/ Robert Munoz, TDCJ-ID No. 01859917, presently incarcerated
at the Stevenson Unit located at Dewitt County, Cuero, Texas do
declare under penalty of perjury that the above is true and correct
to the best of my knowledge.
Executed and Signed this 25th day of Decembeg^~2020.

L
ob

z / Pro-Se
Ho-iel859917
1525 FM 766
Cuero, TX 77954

CERTIFICATE OF SERVICE
I, Robert Munoz, TDCJ^ID No. 01859917, do certify that a true
and correct copyc of c,thee foregoing were served to the United Statfes
Attorney General's Office by placing the ^sa-i-nrSxn the
on this the

t>f

Mail Box

day of December, 2020.

jZ^e/isP-ro-Se
859917

34

Additional material
from this filing is
available in the
Clerk's Office.

